No. 19-67
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
EVELYN SINENENG-SMITH
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES, via email and first-class mail, postage prepaid, this
2nd day of December, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 11,606
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
December 2, 2019.

December 2, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0067
USA
EVELYN SINENENG-SMITH
DANIEL F. COOK
PO BOX 26
BODEGA BAY, CA 94923
415-730-3075
MARK C. FLEMING
WILMER CUTLER PICKERING HALE & DORR
LLP
60 STATE STREET
BOSTON, MA 02109
617-526-6909
MARKFLEMING@WILMERHALE.COM
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG

